                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL .
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A08110064                                                                          Page 1 of 1


                                                                                       I

                 We identified a questionable use of funds in an award 1 identified as part of a proactive review
         of awards involving participant support costs. After reviewing documentation that the institution2
         provided, we determined that the institution had improperly reallocated participant support funds for
         other direct costs, The institution voluntarily refunded the money to NSF. 3 The institution described
         an ongoing backlog in its post award processing that led to the improper claim for these funds. This
         matter will be referred to the Office of Audit for, its consideration.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
